CERTIFICATE OF SERVICE
Case Name: Lyle Coultas v. Carroll Tichenor, et al
United Stated Supreme Court Case No.: 20-613

I certify that a copy of Petitioner's Petition for Rehearing on a Writ of Certiorari was served
by First Class Mail, postage prepaid, certified return receipt, on the Date below to Attorney Andrew
Hallman (Assistant Attorney General for the Oregon Department of Justice), the Clerk of the United
States Ninth Circuit Court of Appeals, Clerk of the United States Supreme Court, clerk for the United
States District Court for Portland, Oregon.

Name / Address

DATE SERVED
,2021

Benjamin Gutman
Department of Justice
1162 Court Street NE
Salem, Oregon 97301-4096
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

Cc; File

